                                                             ~ SBCu
                                                            :>v
                                                             ~~
                                                            Wrts~~
                                                            ~ IIIIIII~~
                                                             "'IvISTV

                                             SOCIAL            SECURITY
                                             Office of the Inspector General
MEMORANDUM
Date:                                                                                  Refer To: 31214-23-191
        August     2,2001

To:     Larry    G. Massanari
        Acting    Commissioner
         of Social    Security

From:
        Inspector General


Subject: Unresolved     Death    Alerts   Over   120 Days    Old (A-09-00-1   0001 )



        The attached final report presents the results of our audit. Our objective was to
        evaluate the effectiveness of the Social Security Administration's controls and
        procedures for resolving death alerts over 120 days old and identifying payments to
        deceased beneficiaries.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    UNRESOLVED DEATH ALERTS
       OVER 120 DAYS OLD


    August 2001   A-09-00-10001
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objective of the audit was to evaluate the effectiveness of the Social Security
Administration’s (SSA) controls and procedures for resolving death alerts over 120 days
old and identifying payments to deceased beneficiaries.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) programs under titles II and XVI of the Social
Security Act. The OASDI program provides benefits to retired and disabled workers,
including their dependents and survivors. The SSI program provides benefits to
financially needy individuals who are aged, blind, and/or disabled. About 2.3 million
people die in the United States each year, of whom 2.0 million are SSA beneficiaries.
The death of a beneficiary results in the termination of Social Security benefits.

SSA receives reports of death from a variety of sources, including friends and relatives
of deceased individuals, funeral homes, postal authorities, financial institutions, and
Federal and State agencies. Friends, relatives, and funeral homes report about
90 percent of deaths. Postal authorities and financial institutions report another
5 percent of deaths. SSA relies on computer matches with Federal and State agencies
to identify the remaining 5 percent of deaths. Upon receipt of a death report, field
offices (FO) and processing centers are responsible for entering the information into
SSA’s automated systems.

To identify erroneous payments to deceased individuals, SSA’s Death Alert, Control,
and Update System (DACUS) performs computer matches with death data received
from external and internal sources. The external sources include Federal agencies,
such as Veterans Administration and Health Care Financing Administration, and State
agencies, such as bureaus of vital statistics (BVS) and social services agencies. The
internal sources include SSA’s system of records, such as the Master Beneficiary
Record, Supplemental Security Record, and Numident master file.

DACUS receives the death reports and compares the date of death to SSA’s payment
records. If the comparison indicates that payments have been made after death or
there is conflicting information about the date of death, DACUS generates an alert to
the FO. DACUS also generates a follow-up alert every 30 days until the initial alert has
been resolved. In addition, DACUS produces a monthly report of death alerts over
120 days old, called the “120-day aged alert report,” for regional offices (RO) to ensure
that all death alerts are resolved. In accordance with SSA’s procedures, FOs should
take prompt action to resolve death alerts within 30 days to minimize incorrect
payments.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                   i
RESULTS OF REVIEW
SSA’s controls and procedures were not effective to ensure that the DACUS 120-day
aged alert report is reviewed and resolved in a timely and consistent manner. SSA
needs to implement systems modifications to: (1) improve the processing and
monitoring of death alerts; and (2) reduce the potential for erroneous payments to
deceased individuals.

Our review disclosed that $782,099 of payments attributable to 206 deceased
individuals could have been avoided had the death alerts been resolved within 30 days
of their appearance on the DACUS 120-day aged alert report (see Appendix A). These
incorrect payments consisted of OASDI benefits totaling $657,324 and SSI payments
totaling $124,775.

Our computer match using BVS death records from the State of California for 1989
through 1998 and the DACUS 120-day aged alert report for March 1999 disclosed that
72 individuals were deceased but continued to receive payments after their deaths
totaling $959,545. This match was conducted to assess the vulnerability to error and
fraud represented by unresolved death alerts over 120 days old.

During our review, we also identified 26 cases where individuals may have fraudulently
negotiated Social Security benefits after the death of a beneficiary. The individuals
received overpayments totaling $429,779, including OASDI benefits of $331,137 and
SSI payments of $98,642. We have referred these cases to our Office of Investigations.
SSA subsequently terminated payments to these individuals.

CONCLUSIONS AND RECOMMENDATIONS
We believe that SSA needs to implement a more proactive system for processing and
monitoring death alerts over 120 days old. Such a system should reduce the number
of payments attributable to deceased individuals and the vulnerability of the Agency
to individuals who fraudulently negotiate payments received after the death of a
beneficiary. SSA employees informed us that they are currently in the process of
improving the death reporting system. Although DACUS generates the 120-day aged
alert report, this does not, in and of itself, ensure that action to resolve the alert will be
taken. We recommend that SSA:

�	 Develop specific procedures, including time frames, for ROs to take corrective action
   on the DACUS 120-day aged alert report.

�	 Monitor the DACUS 120-day aged alert report on a nationwide basis and follow up
   with ROs to ensure timely processing of death alerts.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                        ii
�	 Expedite implementation of release 3 of DACUS to simplify the clearance of death
   alerts, provide on-line management information, and reduce the number of error
   conditions resulting in unproductive alerts.

�	 Sort the DACUS 120-day aged alert report by payment status and source code to
   ensure that priority is given to death alerts for individuals in current pay status based
   on reports of death from State BVS records.

AGENCY COMMENTS
In its response, SSA agreed with our first two recommendations. Accordingly, SSA

agreed to develop procedures for processing and monitoring death alerts over

120 days old. For the third recommendation, SSA agreed that the planned systems

enhancements included in DACUS Release 3 would improve its death reporting system.

However, SSA reported that it could not expedite the implementation of DACUS

Release 3 due to limited resources.


For the fourth recommendation, SSA agreed that priority should be given to death alerts

for individuals in current pay status based on reports of death from State BVS records.

Instead of sorting the DACUS 120-day aged alert report, SSA agreed to instruct its

FOs to give priority to these alerts. SSA also provided technical comments that have

been incorporated into the final report. The full text of SSA’s comments is included in

Appendix B.


OIG RESPONSE
SSA’s planned actions generally addressed our recommendations. To further reduce
the potential for erroneous payments to deceased individuals, we encourage SSA to
explore alternatives for expediting the implementation of DACUS Release 3 as
resources permit.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                  iii
                                                             Table of Contents

                                                                                                                     Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 6


Delays in Processing Death Alerts Resulted in Avoidable Incorrect

Payments ............................................................................................................... 7


     �    Processing and Monitoring of Death Alerts Over 120 Days Old .................. 8

     �    Automated Controls Over Death Alerts Should Be Improved .................... 11


CONCLUSIONS AND RECOMMENDATIONS .................................................... 14


APPENDICES

Appendix A – Summary of 120-Day Aged Alert Report for March 1999

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments





Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)
                                                                  Acronyms

 BVS               Bureau of Vital Statistics

 DACUS             Death Alert, Control, and Update System

 FO                Field Office

 HCFA              Health Care Financing Administration

 MBR               Master Beneficiary Record

 OASDI             Old-Age, Survivors and Disability Insurance

 OMB               Office of Management and Budget

 PC                Processing Center

 POMS              Program Operations Manual System

 RO                Regional Office

 SSA               Social Security Administration

 SSI               Supplemental Security Income

 SSR               Supplemental Security Record

 VA                Veterans Administration





Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)
                                                                       Introduction

OBJECTIVE
The objective of the audit was to evaluate the effectiveness of the Social Security
Administration’s (SSA) controls and procedures for resolving death alerts over 120 days
old and identifying payments to deceased beneficiaries.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
under title II of the Social Security Act (Act). The OASDI program provides benefits to
retired and disabled workers, including their dependents and survivors. SSA also
administers the Supplemental Security Income (SSI) program under title XVI of the Act.
The SSI program provides benefits to financially needy individuals who are aged, blind,
and/or disabled. For the Fiscal Year ending September 30, 1999, the OASDI program
provided cash payments of $382.8 billion to 44.5 million beneficiaries and the SSI
program provided cash payments of $28.1 billion to 6.6 million recipients.1

About 2.3 million people die in the United States each year, of whom 2.0 million are
SSA beneficiaries.2 The death of a beneficiary results in the termination of Social
Security benefits. SSA receives reports of death from a variety of sources, including
friends and relatives of deceased individuals, funeral homes, postal authorities, financial
institutions, and Federal and State agencies. Friends, relatives, and funeral homes
report about 90 percent of deaths. Postal authorities and financial institutions report
another 5 percent of deaths. SSA relies on computer matches with Federal and State
agencies to identify the remaining 5 percent of deaths.

Upon receipt of a death report, field offices (FO) and processing centers (PC) are
responsible for entering the information into SSA’s automated systems. For all
individuals, the death information is recorded on the Numident, a master file that
contains personal identifying data about each individual who has been issued a Social
Security number. For individuals currently receiving benefits, the death information is
recorded on the Master Beneficiary Record (MBR) and Supplemental Security Record
(SSR), the master files that contain payment data about each individual who has
received Social Security benefits.




1
    Social Security Accountability Report for Fiscal Year 1999, page vii.
2
 U.S. Department of Health and Human Services, Centers for Disease Control and Prevention, National
Center for Health Statistics, National Vital Statistics Report, volume 48, number 17 and Annual Statistical
Supplement, 1999 to the Social Security Bulletin, table 6.F2.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                                 1
Death Alert, Control, and Update System

To identify erroneous payments to deceased individuals, SSA’s Death Alert, Control,
and Update System (DACUS) performs computer matches with death data received
from external and internal sources. The external sources include Federal agencies,
such as Veterans Administration (VA) and Health Care Financing Administration
(HCFA), and State agencies, such as bureaus of vital statistics (BVS) and social
services agencies. The internal sources include SSA’s system of records, such as the
MBR, SSR, and Numident. DACUS also produces a national file of death information,
called the Death Master File.

DACUS receives the death reports and compares the date of death to SSA’s payment
records (e.g., MBR and SSR). If there is no conflicting information, DACUS records the
death on the Numident. If the comparison indicates that payments have been made
after death or there is conflicting information about the date of death, DACUS generates
an alert to the FO. DACUS also generates a follow-up alert every 30 days until the
initial alert has been resolved. In addition, DACUS produces a monthly report of death
alerts over 120 days old, called the “120-day aged alert report,” for regional offices (RO)
to ensure that all death alerts are resolved.

As part of its ongoing effort to modernize the automated systems, SSA has developed
specific goals, including a transition plan, for improving its death reporting system. The
transition plan provides for a series of five software updates to DACUS. Releases 1
and 2 have been completed. Release 3 will contain a number of systems modifications
to: (1) allow a single input to reconcile discrepancies between DACUS and SSA’s
payment records; (2) eliminate error conditions resulting in unproductive alerts; and
(3) provide on-line access to management information reports, including an audit
system to monitor all transactions.

SSA’s Program Operations Manual System (POMS) states that FOs should take prompt
action to resolve death alerts within 30 days to minimize incorrect payments.3 For these
alerts, the FO attempts to contact the subject of the death alert or appropriate contact
person via telephone to verify the death information. If the death is verified, the FO
terminates benefits immediately. If the individual may be alive, the FO conducts a
face-to-face interview. If the telephone contact is unsuccessful, the FO mails a
“come-in” letter to request a face-to-face interview. For SSI recipients,4 the FO mails
another letter which provides advance notice of adverse action and suspends benefits
after 30 days if there is no response. For OASDI beneficiaries, the PC suspends
payments after 20 days if there is no response and terminates benefits after an
additional 60 days. An overview of the death alert process is depicted in the following
chart.



3
    POMS section GN 02602.065.
4
    Including individuals who receive concurrent benefits under the OASDI and SSI programs.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                     2
                               Processing of Death Alerts
        Initial               Follow-Up           Follow-Up            Follow-Up
                      30                   30                    30                  30
        Death                   Alert               Alert                Alert                120-Day
                     Days                 Days                  Days                Days
         Alert                                                                               Aged Alert
                                                                                               Report


                                                     Call
                                                   Individual




                   Death                          Individual                          Contact
                  Verified?                         Alive?                         Unsuccessful?




                  Terminate                      Face-To-Face                        “Come-In”
                   Benefits                        Interview                           Letter




                                                   Continue                          Suspend
                                                   Benefits                          Benefits




SCOPE AND METHODOLOGY
                               Based on the DACUS 120-day aged alert report for
   1,902 Death Alerts          March 1999, there were 1,902 death alerts for individuals
   Were 120 Days Old           receiving OASDI benefits and/or SSI payments. These
    as of March 1999           alerts had been unresolved for over 120 days after the
initial alerts were issued. We determined that 546 alerts were for individuals in current
pay status. The remaining 1,356 alerts were for individuals in suspended or terminated
pay status. We focused our review on the individuals in current pay status because of
the potential vulnerability resulting from delays in processing these alerts, which could
result in additional incorrect payments to deceased individuals. The following chart
summarizes the unresolved death alerts over 120 days old by payment status.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                                 3
              Death Alerts on 120-Day Aged Alert Report
                                       March 1999

                                                            Suspended
      Terminated                                            317 (16.7%)
     1,039 (54.6%)




                                                                          Current Pay
                                                                          546 (28.7%)




To accomplish our objective, we:

   •	 reviewed the applicable sections of the Act, Code of Federal Regulations, and
      POMS;

   •	 conducted interviews with employees from SSA’s Headquarters, including the
      Office of Program Benefits, Office of Systems Requirements, Office of Systems
      Design and Development, Office of Public Service and Operations Support, and
      Office of Quality Assurance and Performance Assessment;

   •	 conducted interviews with employees responsible for processing death alerts in
      SSA’s 10 ROs and selected FOs;

   •	 obtained the DACUS 120-day aged alert report for March 1999, November 1999,
      December 1999, and October 2000;

   •	 obtained queries from the MBR, SSR, Numident, Payment History Update
      System, and Modernized Development Worksheet for all individuals in current
      pay status on the DACUS 120-day aged alert report for March 1999;

   •	 performed a computer match using BVS death records from the State of
      California for 1989 through 1998 and the DACUS 120-day aged alert report for
      March 1999; and




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                               4
    •	 obtained death certificates from the State of California to verify the deaths of
       selected beneficiaries.

As part of our review, we compared the information on the death alerts to SSA’s
payment records for the individuals in current pay status on the DACUS 120-day aged
alert report for March 1999. For the individuals who were deceased, we determined
whether SSA had resolved the death alerts in a timely manner. If not, we calculated the
incorrect payments that could have been avoided had the death alerts been resolved
within 30 days of their appearance on the 120-day aged alert report.

Using BVS death records from the State of California for 1989 through 1998, we also
performed a computer match to identify individuals who died in California and were in
current pay status on the DACUS 120-day aged alert report for March 1999. For these
individuals, we determined whether SSA had subsequently resolved the death alerts. If
not, we verified the death information and calculated the payments issued after the date
of death. In addition, we referred any instances of suspected fraud to our Office of
Investigations.

In accordance with the Federal Managers’ Financial Integrity Act and related Office
of Management and Budget (OMB) guidance,5 a Certified Public Accounting firm
performed tests of SSA’s internal controls over OASDI initial claims and postentitlement
systems. These tests included the MBR and Numident, which were used to compile
data for the DACUS 120-day aged alert report. The tests did not disclose any material
weaknesses in the MBR and Numident. During our review, we relied on the tests
performed by the accounting firm.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
November 1999 and October 2000. The entity audited was the Office of Program
Benefits within the Office of the Deputy Commissioner for Disability and Income
Security Programs. We conducted our audit in accordance with generally accepted
government auditing standards.




5
  OMB Circular A-123, Internal Control Systems; OMB Circular A-127, Financial Management Systems;
and OMB Circular A-130, Management of Federal Information Resources.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                           5
                                               Results of Review

SSA’s controls and procedures were not effective to ensure that the DACUS 120-day
aged alert report is reviewed and resolved in a timely and consistent manner. SSA
needs to implement systems modifications to: (1) improve the processing and
monitoring of death alerts; and (2) reduce the potential for erroneous payments to
deceased individuals.

As of March 1999, the DACUS 120-day aged alert report contained 546 death alerts for
individuals in current pay status. We found that 224 of these alerts were valid because
the individuals were actually deceased. Of this amount, SSA properly resolved
18 alerts (8.0 percent) within 30 days of their appearance on the 120-day aged alert
report. However, SSA did not take prompt corrective action to resolve the remaining
206 alerts (92.0 percent). We also found that 250 alerts were generated based on
erroneously reported death information, or were unproductive because the individuals
were previously terminated or not entitled to benefits. We were unable to determine the
disposition of the remaining 72 alerts. A breakdown of the 546 death alerts for
individuals in current pay status is provided below.



                                Death Alerts – Current Pay Status
                                            March 1999

                         250


                         200
      Number of Alerts




                                                250
                         150     224

                         100


                          50
                                                               72
                           0
                               Individual     Individual    Resolution
                               Deceased     Not Deceased    Unknown




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                             6
DELAYS IN PROCESSING DEATH ALERTS RESULTED IN AVOIDABLE
INCORRECT PAYMENTS
Our review disclosed that $782,099 of payments attributable to 206 deceased
individuals could have been avoided had the death alerts been resolved within 30 days
of their appearance on the DACUS 120-day aged alert report (see Appendix A). These
incorrect payments consisted of OASDI benefits totaling $657,324 and SSI payments
totaling $124,775.

       Computer Match          Our computer match using BVS death records from the
      Identified $959,545      State of California for 1989 through 1998 and the DACUS
       in Overpayments         120-day aged alert report for March 1999 disclosed that
                               72 individuals were deceased but continued to receive
payments after their deaths totaling $959,545.6 This match was conducted to assess
the vulnerability to error and fraud represented by unresolved death alerts over
120 days old.

During our review, we also identified 26 cases where individuals may have fraudulently
negotiated Social Security benefits after the death of a beneficiary. The individuals
received overpayments totaling $429,779, including OASDI benefits of $331,137 and
SSI payments of $98,642. We have referred these cases to our Office of Investigations.
SSA subsequently terminated payments to these individuals. The following chart
provides a summary of the monetary results questioned by our audit.7




6
  The DACUS 120-day aged alert report for March 1999 contained 546 death alerts for individuals in
current pay status. Of this amount, 149 individuals were in the State of California.
7
    These amounts are not mutually exclusive and are used for illustrative purposes only.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                            7
                        Summary of Monetary Results

     $1,000,000
      $900,000
      $800,000
                                                                    Overpayments Via
      $700,000                                                      Computer Match (72)
                       $959,545
      $600,000                                                      Avoidable Incorrect
                                                                    Payments (206)
      $500,000                    $782,099
                                                                    Fraud Referrals for
      $400,000                                                      Investigation (26)

      $300,000
                                             $429,779
      $200,000
      $100,000
            $0




Processing and Monitoring of Death Alerts Over 120 Days Old

Our review disclosed that SSA needs to improve procedures for processing and
monitoring death alerts over 120 days old. Although DACUS generates a monthly
report of unresolved death alerts over 120 days old, SSA has not established formal
written procedures to review and resolve the 120-day aged alert report in a timely and
consistent manner. Also, SSA does not have procedures in place to monitor the
120-day aged alert report to identify national trends and patterns or regional delays and
backlogs. As a result, 206 individuals received incorrect payments totaling $782,099
that could have been avoided had the death alerts been resolved within 30 days of their
appearance on the DACUS 120-day aged alert report.

                             The number of unresolved death alerts over 120 days old
   Incorrect Payments
                             and the amount of avoidable incorrect payments varied
    of $782,099 Could
                             considerably by region. Based on the DACUS 120-day
   Have Been Avoided
                             aged alert report for March 1999, one region had $424 in
avoidable incorrect payments, attributable to one alert that was unresolved for more
than 30 days after it appeared on the 120-day aged alert report. In contrast, another
region had $400,385 in avoidable incorrect payments, attributable to 99 alerts that were
unresolved for more than 30 days after they appeared on the 120-day aged alert report.
We also noted similar differences among specific FOs within each region. The amount
of avoidable incorrect payments by region is illustrated in the following chart.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                 8
                       Avoidable Incorrect Payments by Region

                                                Seattle   Boston
                                                $41,654   $12,546         New York
       San Francisco                                                       $59,636
                                                                                       Atlanta
         $400,385                                                                      $30,901




                                                                                             Philadelphia
                                                                                              $119,341




                                                                                       Chicago
                                                                              Dallas   $40,914
                                                                Denver
                                                                             $28,859
                                                  Kansas City   $47,439
                                                     $424




POMS states that FOs should take prompt action to clear all death alerts (i.e., initial and
follow-up alerts) within 30 days to minimize incorrect payments.8 POMS also states that
the DACUS 120-day aged alert report is produced for ROs to ensure that all monthly
alerts are resolved.9 However, POMS does not provide guidance on how the 120-day
aged alert report should be used to resolve these alerts. Specifically, POMS does not
require that the 120-day aged alert report be reviewed or resolved, nor does it provide
time frames for completion of such actions.

We found that each RO had implemented its own procedures for resolving death alerts
over 120 days old. As a result, some ROs developed more effective procedures than
other ROs. For example, one RO sent a memorandum with the 120-day aged alert
report to all area directors and district managers, which identified the number of
unresolved alerts by FO and the problem alerts where special procedures were
necessary. In contrast, another RO did not review, control, or follow up on the 120-day
aged alert report on a routine basis.

SSA employees10 informed us that the ROs receive the DACUS 120-day aged alert
report on a monthly basis but it is not always used to monitor the status of unresolved
alerts. In addition, the 120-day aged alert report is not consistently used to identify
trends and patterns on a national basis or delays and backlogs on a regional basis. In
the past, SSA had performed nationwide analyses of death alerts to compile the number

8
     POMS section GN 02602.065.
9
     POMS section SM 00623.001 and GN 02602.060.
10
     Staff members from SSA’s 10 ROs and Office of Public Service and Operations Support.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                                   9
and age of unresolved alerts by region. However, this practice was discontinued. Such
information may be useful to recognize best practices among ROs and identify FOs with
unusual or significant problems.

For the 206 individuals with avoidable incorrect payments, the amount of time required
to resolve the death alerts ranged from 1 to 29 months. These processing delays are
reflected in the following chart. SSA could have avoided the incorrect payments had the
death alerts been resolved within 30 days of their appearance on the DACUS 120-day
aged alert report. Since these individuals remained in current pay status during this
period, they continued to receive benefits to which they were not entitled until the
termination actions were subsequently processed.



                                  Length of Time to Resolve Death Alerts11
                         35

                         30
      Number of Alerts




                         25

                         20

                         15

                         10

                         5

                         0
                              1   2   3   4   5   6   7   8   9   10 11 12 13 14 15 16 18 19 26 29
                                                          Number of Months




                             Based on the DACUS 120-day aged alert report for

     Oldest Death Alert      March 1999, the oldest death alert was 923 days old.

     Was 923 Days Old        The beneficiary died on July 23, 1996. DACUS generated

     as of March 1999        the initial alert on September 12, 1996. This alert first

appeared on the 120-day aged alert report on January 11, 1997. It continued to
appear on the 120-day aged alert report until SSA subsequently terminated benefits on
July 1, 1999. As a result, the beneficiary remained in current pay status for 1,022 days
and received incorrect payments totaling $24,726. Although SSA subsequently
recovered the full amount of the overpayment, $20,061 of the incorrect payments could
have been avoided had the alert been resolved within 30 days of its appearance on the
120-day aged alert report.

11
   For incorrect payments that could have been avoided had the death alerts been resolved within
30 days of their appearance on the DACUS 120-day aged alert report.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                            10
Another individual received incorrect payments totaling $10,584 over an 18-month
period. The beneficiary died on November 16, 1997. DACUS generated the initial alert
on September 10, 1998. This alert first appeared on the 120-day aged alert report on
February 7, 1999. SSA did not take corrective action to resolve the alert within 30 days
of its appearance on the 120-day aged alert report. In July 1999, we performed a
computer match using State BVS records and identified the beneficiary as deceased.
We obtained a death certificate to verify the death and referred the case to our Office of
Investigations on October 12, 1999. The beneficiary had a joint checking account with
her son, who apparently continued to receive and spend his deceased mother’s
benefits. On August 3, 2000, a jury found the son guilty on seven counts of theft of
Government property. On October 11, 2000, the son was ordered to make full
restitution to SSA for $10,584 and sentenced to 5 years of probation and 900 hours of
community service.

To prevent future instances of fraud, waste, and abuse, SSA should strengthen its
procedures for processing and monitoring the DACUS 120-day aged alert report. Such
procedures are necessary to detect and prevent significant delays in resolving death
alerts over 120 days old. Since SSA’s procedures state that FOs should resolve death
alerts within 30 days, we believe that ROs should also resolve the 120-day aged alert
report within 30 days. Therefore, we recommend that SSA develop specific procedures,
including time frames, for ROs to take corrective action on the 120-day aged alert
report. In addition, SSA should monitor the 120-day aged alert report on a nationwide
basis and follow up with ROs to ensure timely processing of death alerts.

Automated Controls Over Death Alerts Should Be Improved

Our review disclosed that SSA needs to improve automated controls to simplify the
clearance of death alerts, provide on-line management information, and reduce the
number of error conditions resulting in unproductive alerts. SSA employees12 informed
us that systems modifications are needed to facilitate the processing of death alerts.
For example, clearing an alert may require two or more inputs into SSA’s automated
systems by the FO and another input by the PC. If the inputs are entered incorrectly,
the alert is not cleared and a follow-up alert will be generated in 30 days. Furthermore,
an input to the MBR will update the SSR (and visa versa) but may require several
weeks to interface with DACUS. Therefore, a follow-up alert may be generated even
when the correct inputs have been entered.

SSA employees13 also informed us that DACUS does not provide on-line access to
management information reports. Moreover, DACUS does not provide immediate
feedback on the results of the actions taken to clear the death alerts. As a result, FOs
are unable to promptly determine whether their inputs properly resolved the alert.
On-line access to management information reports is necessary to provide up-to-date
information on the number of alerts received, cleared, and pending on a local, regional,

12
     Staff members from SSA’s 10 ROs and selected FOs.
13
     Ibidem.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                               11
and national level. Without such information, FOs are ill-equipped to effectively manage
their workload, since the status of unresolved death alerts is not readily available.

We noted that the DACUS 120-day aged alert report for March 1999 contained more
unproductive alerts than valid alerts. Of the 546 death alerts for individuals in current
pay status, there were 224 valid alerts (41.0 percent) where the individuals were
actually deceased and 250 alerts (45.8 percent) that were generated based on
erroneously reported death information, or were unproductive because the individuals
were previously terminated or not entitled to benefits. We were unable to determine the
disposition of the remaining 72 alerts (13.2 percent) due to a lack of supporting
documentation. The unproductive alerts consume SSA’s limited resources and distract
FOs from resolving the valid alerts requiring immediate corrective action.

     Death Alerts From       The accuracy of death alerts varied considerably based on
     State BVS Records       the source of the originating report of death. For the
     Were 93% Accurate       individuals in current pay status, we determined that the
                             reports of death from State BVS records were more reliable
than the reports of death from other Federal agencies, such as HCFA and VA. As
depicted in the chart below, a total of 159 alerts were based on reports of death from
State BVS records, of which 148 alerts (93.1 percent) were valid. In contrast, a total of
315 alerts were based on reports of death from other sources, of which only 76 alerts
(24.1 percent) were valid.14



                                   Accuracy of Death Alerts by Source
                            160

                            140                                           Valid Alerts

                            120                                           Unproductive Alerts
         Number of Alerts




                            100

                            80

                            60

                            40

                            20

                             0

                                  BVS     HCFA        SSA15             VA               Bendex



14
     We did not include the 72 alerts in which their disposition could not be determined.
15
   These alerts originated from death information entered by FO employees from a variety of sources,
including family members, funeral homes, and SSA’s payment records.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                              12
SSA employees16 informed us that they are currently in the process of improving the
death reporting system. Specifically, systems modifications are planned for release 3
of DACUS. These modifications include: (1) allowing a single input to reconcile
discrepancies between DACUS and SSA’s payment records, (2) eliminating error
conditions resulting in unproductive alerts, and (3) providing on-line access to
management information reports, including an audit system to monitor all transactions.
As of March 2001, we learned that release 3 may be split into interim releases. One
interim release may be issued by the end of 2001, but subsequent releases are
unscheduled. These DACUS modifications are important to reduce processing times,
improve payment accuracy, and deter fraud, waste, and abuse.

We believe that SSA should assign a high priority to the processing and monitoring of
death alerts, with emphasis on the unresolved alerts over 120 days old. SSA should
also focus its efforts on resolving valid alerts, not unproductive alerts. Therefore, we
recommend that SSA expedite implementation of release 3 of DACUS to simplify the
clearance of death alerts, provide on-line management information, and reduce the
number of unproductive alerts. In the interim, SSA should sort the DACUS 120-day
aged alert report by payment status and source code to ensure that priority is given to
death alerts for individuals in current pay status based on reports of death from State
BVS records, which appear to be the most reliable source of death alerts.




16
  Staff members from the Office of Systems Requirements and Office of Systems Design and
Development.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                  13
                                             Conclusions and
                                            Recommendations
We found that $782,099 of payments attributable to 206 deceased individuals
could have been avoided had the death alerts been resolved within 30 days of their
appearance on the DACUS 120-day aged alert report. In addition, our computer match
using BVS death records from the State of California for 1989 through 1998 and the
DACUS 120-day aged alert report for March 1999 disclosed that 72 individuals were
deceased but continued to receive payments after their deaths totaling $959,545. We
also identified 26 cases where individuals may have fraudulently negotiated Social
Security benefits totaling $429,779 after the death of a beneficiary.

RECOMMENDATIONS
We believe that SSA needs to implement a more proactive system for processing and
monitoring death alerts over 120 days old. Such a system should reduce the number
of payments attributable to deceased individuals and the vulnerability of the Agency
to individuals who fraudulently negotiate payments received after the death of a
beneficiary. SSA employees informed us that they are currently in the process of
improving the death reporting system. Although DACUS generates the 120-day aged
alert report, this does not, in and of itself, ensure that action to resolve the alert will be
taken. We recommend that SSA:

1. 	 Develop specific procedures, including time frames, for ROs to take corrective
     action on the DACUS 120-day aged alert report.

2. 	 Monitor the DACUS 120-day aged alert report on a nationwide basis and follow up
     with ROs to ensure timely processing of death alerts.

3. 	 Expedite implementation of release 3 of DACUS to simplify the clearance of death
     alerts, provide on-line management information, and reduce the number of error
     conditions resulting in unproductive alerts.

4. 	 Sort the DACUS 120-day aged alert report by payment status and source code to
     ensure that priority is given to death alerts for individuals in current pay status
     based on reports of death from State BVS records.

AGENCY COMMENTS
In its response, SSA agreed with our first two recommendations. Accordingly, SSA
agreed to develop procedures for processing and monitoring death alerts over
120 days old. For the third recommendation, SSA agreed that the planned systems
enhancements included in DACUS Release 3 would improve its death reporting system.


Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                        14
However, SSA reported that it could not expedite the implementation of DACUS

Release 3 due to limited resources.


For the fourth recommendation, SSA agreed that priority should be given to death alerts

for individuals in current pay status based on reports of death from State BVS records.

Instead of sorting the DACUS 120-day aged alert report, SSA agreed to instruct its

FOs to give priority to these alerts. SSA also provided technical comments that have

been incorporated into the final report. The full text of SSA’s comments is included in

Appendix B.


OIG RESPONSE
SSA’s planned actions generally addressed our recommendations. To further reduce
the potential for erroneous payments to deceased individuals, we encourage SSA to
explore alternatives for expediting the implementation of DACUS Release 3 as
resources permit.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                            15
                                      Appendices





Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)
                                                                                                                         Appendix A

Summary of 120-Day Aged Alert Report for March 1999

                         Unresolved       Average Age           Total Alerts        Valid Alerts         Valid Alerts         Avoidable
                         Alerts Over      of Unresolved          in Current          in Current         Not Resolved           Incorrect
     SSA Region         120 Days Old1     Alerts (Days)         Pay Status          Pay Status           in 30 Days           Payments2
    Boston                         33               412                     8                   6                    5             $12,546
    New York                      155               457                    52                  16                   14             $59,636
    Philadelphia                  181               354                    51                  33                   32            $119,341
    Atlanta                       128               228                    45                  19                   16             $30,901
    Chicago                       215               553                    78                  14                   11             $40,914
    Dallas                        125               306                    34                  12                   10             $28,859
    Kansas City                    16               212                     6                   1                    1                $424
    Denver                        130               464                    32                  11                   10             $47,439
    San Francisco                 594               340                  183                 104                    99            $400,385
    Seattle                       142               438                    49                   8                    8             $41,654
    Other3                        183               868                     8                   0                    0                   $0
    Total                       1,902               432                  546                 224                  206             $782,099


1
  SSA processes death alerts daily throughout the year. Because of shifting workload priorities, the number of unresolved death alerts over
120 days old may vary significantly. For example, the total unresolved death alerts over 120 days old had decreased from 1,902 in March 1999
to 1,231 in October 2000. However, the average age of these alerts had increased from 432 days old to 543 days old. In October 2000, the
region with the fewest alerts was Kansas City and the region with the most alerts was Chicago.
2
  Incorrect payments that could have been avoided had the death alerts been resolved within 30 days of their appearance on the 120-day aged
alert report.
3
    Not identified by SSA region.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)
                   Appendix B


Agency Comments

                                                        -~\. SEC&
                                                        v""-        ~
                                                      .$l~~
                                                       :'//'USA\.\~

                                                      '.J)!l~

                                        SOCIAL             SECURITY


MEMORANDUM


Date:      June   21,   2001                                                     Refer To: SlJ-3


To:        JamesG. Huse,Jr.
           InspectorGeneral
                                                  /

From:
                                  I
           Larry G. Massanari



Subject'   Office of the Inspector General (OIG) Draft Report, "Unresolved Death Alerts Over 120 Days
           Old" (A-09-00-1 000 1~::-INFORMA TION



           We appreciate OI G's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Pleaselet us know if we may be of further assistance.Staff questions may be referred to Dan
           Sweeneyon extension 51957.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (GIG) DRAFT REPORT,
"UNRESOLVED   DEATH ALERTS    OVER 120 DAYS OLD" (A-



Recommendation      1


Develop specific procedures, including time frames, for ROs to take corrective action on the
DACUS 120-day aged alert report.

Comment


We concur with this recommendation.      We expect to have procedures in place by the end of
June 2001.


Recommendation      2


Monitor the DACUS: 120-day aged alert report on a nationwide basis and follow up with ROs to
ensuretimely processing of death alerts.

Comment


We concur with this recommendation. The Office of Operations will monitor the reports using
the Death Alert Tracking System (DATS) which provides on-line management information at all
component levels.

Recommendation      3


Expedite implementation of release3 of DACUS to simplify the clearanceof death alerts,
provide on-line managementinformation, and reduce the number of erroneous alerts.

Comment


Since the work on DACUS Release3.1 is proceeding as quickly as resourcespennit, we cannot
agreewith the recommendation. Implementation is scheduled for November 2001. One
modification will eliminate unproductive alerts where the individual died after applying for
benefits but prior to entitlement. Also includ~d will be the addition of infonnation on the
abbreviated version of the pending alert control file available to the field, making it easierto
identify the oldest casesand casesin current pay status.

DACUS Release3.2 is scheduledto begin the planning and analysis phasein early 2002. This
releasewill addressthe concern of improved MI. Lockheed-Martin contractors will assistin the
analysis and development of recommendations to addressthe most critical improvements needed
for DACUS.




                                                               I                               8-2
 Unresolved   Death Alerts Over 120 Days Old (A-09-00-10001)
Recommendation         4


Sort the DACUS 120-day aged alert report by payment statusand source code to ensurethat
priority is given to death alerts for individuals in current pay status basedon reports of death
from StateBVS records.

Comment


The DACUS 120-day aged alert is sorted to facilitate the ROs in their efforts to work with the
areasand field offices to resolve the alerts, and therefore we do not agreewith this
recommendation. The report is sorted by area,and then by field office. Each office generally
does not have more than a few alerts, making the sort order at that level of minimal importance.
In addition, DA TS provides data on payment statusand source code at all component levels,
providing the flexibility to obtain the information and manipulate it using various sorting orders.
The Office of Operations will instruct field offices to give priority to the alerts for individuals in
current pay statusbasedon reports of death from the State BVS. We expect these instructions to
be releasedby the end of June 2001.

Other   Matters


As we advised at the exit conferenceheld on May 7,2001, we remain concerned with OIG's use
of the term 'erroneous'alerts in the report narrative. Although footnoted to explain the alerts are
not erroneous,a footnote is easily overlooked and readerscould be led to believe that DACUS is
not operating as intended. We recommend that OIG changethe wording to more accurately
reflect the process. For example, on page 6, 2nd paragraph, OIG states, "We also found that 250
alerts were erroneousbecausethe individuals were still alive, previously terminated " We
believe a more accurate description can be utilized and suggestrevising the entry to reflect, "We
also found 250 alerts that were generatedbasedon erroneously reported death information, of the
alerts were unprodu~tive as the individual was previously terminated or not entitled to benefits."




 Unresolved       Death Alerts Over 120 Days Old (A-09-00-10001)
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
"UNRESOLVED DEATH ALERTS OVER 120 DAYS OLD” (A-09-00-10001)


Recommendation 1

Develop specific procedures, including time frames, for ROs to take corrective action on the
DACUS 120-day aged alert report.

Comment

We concur with this recommendation. We expect to have procedures in place by the end of
June 2001.

Recommendation 2

Monitor the DACUS 120-day aged alert report on a nationwide basis and follow up with ROs to
ensure timely processing of death alerts.

Comment

We concur with this recommendation. The Office of Operations will monitor the reports using
the Death Alert Tracking System (DATS) which provides on-line management information at all
component levels.

Recommendation 3

Expedite implementation of release 3 of DACUS to simplify the clearance of death alerts,
provide on-line management information, and reduce the number of erroneous alerts.

Comment

Since the work on DACUS Release 3.1 is proceeding as quickly as resources permit, we cannot
agree with the recommendation. Implementation is scheduled for November 2001. One
modification will eliminate unproductive alerts where the individual died after applying for
benefits but prior to entitlement. Also included will be the addition of information on the
abbreviated version of the pending alert control file available to the field, making it easier to
identify the oldest cases and cases in current pay status.

DACUS Release 3.2 is scheduled to begin the planning and analysis phase in early 2002. This
release will address the concern of improved MI. Lockheed-Martin contractors will assist in the
analysis and development of recommendations to address the most critical improvements needed
for DACUS.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                      B-2
Recommendation 4

Sort the DACUS 120-day aged alert report by payment status and source code to ensure that
priority is given to death alerts for individuals in current pay status based on reports of death
from State BVS records.

Comment

The DACUS 120-day aged alert is sorted to facilitate the ROs in their efforts to work with the
areas and field offices to resolve the alerts, and therefore we do not agree with this
recommendation. The report is sorted by area, and then by field office. Each office generally
does not have more than a few alerts, making the sort order at that level of minimal importance.
In addition, DATS provides data on payment status and source code at all component levels,
providing the flexibility to obtain the information and manipulate it using various sorting orders.
The Office of Operations will instruct field offices to give priority to the alerts for individuals in
current pay status based on reports of death from the State BVS. We expect these instructions to
be released by the end of June 2001.

Other Matters

As we advised at the exit conference held on May 7, 2001, we remain concerned with OIG’s use
of the term 'erroneous' alerts in the report narrative. Although footnoted to explain the alerts are
not erroneous, a footnote is easily overlooked and readers could be led to believe that DACUS is
not operating as intended. We recommend that OIG change the wording to more accurately
reflect the process. For example, on page 6, 2nd paragraph, OIG states, "We also found that 250
alerts were erroneous because the individuals were still alive, previously terminated....." We
believe a more accurate description can be utilized and suggest revising the entry to reflect, "We
also found 250 alerts that were generated based on erroneously reported death information, or the
alerts were unproductive as the individual was previously terminated or not entitled to benefits."




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)                                           B-3
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments
In addition to those named above:

   Joseph I. Robleto, Senior Auditor

   Pat A. Long, Program Analyst

   Timothy E. Meinholz, Auditor

   Cheryl Robinson, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-00-10001.




Unresolved Death Alerts Over 120 Days Old (A-09-00-10001)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
              Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
